U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        ECONOMICS AND STATISTICS
                ADMINISTRATION

     Additional Security Measures Needed for
     Advance Retail Sales Economic Indicator




   Final Inspection Report No. OSE-12754/September 2001




                            PUBLIC
                            RELEASE



                        Office of Systems Evaluations

U.S. Department of Commerce                                                                    Final Inspection Report OSE-12754

Office of Inspector General                                                                                       September 2001



                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


I.	       Application Controls Should Be Strengthened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


          A.	       Physical access controls for servers on the LAN are reasonable, but

                    guidance for personnel access to branch spaces needs improvement . . . . . . . . . . 9 

          B.	       Logical access controls are appropriate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

          C.	       Application software change control is informal and lacks documented 

                    procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

          D.	       Auditing software has not been regularly used during lockup . . . . . . . . . . . . . . . 13 

          E. 	      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


II.	      Management Controls Over Personnel Security Need to Be Strengthened . . . . . . . . . . . 15 


          A.	       Employees have not had appropriate background investigations . . . . . . . . . . . . 18 

          B. 	      Risk levels for positions have not been properly assigned . . . . . . . . . . . . . . . . . 19 

          C.	       Guidance concerning legal and ethical restrictions on investments based on

                    advance knowledge is not adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

          D.        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


APPENDIXES


          A.	       Purpose and Critical Elements of Major Categories of FISCAM General Controls

          B.        BLS Commissioner’s Order No. 1-00


ATTACHMENT 


          A.	       ESA’s and Census Bureau’s Response to Draft Inspection Report (excluding
                    attachments to the response)
U.S. Department of Commerce                                         Final Inspection Report OSE-12754

Office of Inspector General                                                            September 2001



                                   EXECUTIVE SUMMARY

Two bureaus within the Economics and Statistics Administration, the Census Bureau and the
Bureau of Economic Analysis, develop Principal Federal Economic Indicators, which are major
statistical series that describe the current condition of the nation’s economy. Because these
indicators have significant commercial value, may affect the movement of commodity and
financial markets, and may be taken as a measure of the impact of government policies, no
information associated with them should be disclosed before their official release time. Many
indicators are based on confidential data voluntarily provided by businesses, which also must be
protected. Thus, maintaining the security of the indicators throughout the preparation and release
process is of utmost importance.

This report presents the results of our evaluation of the security of the Census Bureau’s Advance
Retail Sales Principal Federal Economic Indicator. The bureau’s indicators are the responsibility
of the Associate Director for Economic Programs. We selected this indicator for evaluation
because of its high degree of importance and sensitivity.

When initial estimates of the Advance Retail Sales indicator become available, bureau staff
operate in a “lockup,” or secure, mode in order to safeguard the estimates, which are refined over
a period of several days. ESA is responsible for releasing the indicators to the public. It provides
the indicator information to reporters from various news organizations 30 minutes before the
official release time in a secure press room (lockup facility) and allows the reporters to prepare
stories that are transmitted to their news organizations at the official release time. After its
official release, the information is also made available to the public on the ESA and Census
Bureau web sites.

The objective of our evaluation was to determine whether ESA and the Census Bureau have
adequate internal controls to prevent the premature or unauthorized disclosure or use of Advance
Retail Sales economic indicator data before it is released to the public. We evaluated the
effectiveness of (1) application controls associated with information technology resources used to
prepare the indicator and (2) management controls over personnel security for Census Bureau
and ESA staff having advance knowledge of the indicator.

The bureau’s access controls appropriately establish individual accountability and limit the
processing privileges of individuals. In addition, physical access controls for servers used to
develop the indicator are reasonable. However, other aspects of application controls should be
strengthened, and management controls over personnel security need to be improved:

•	     Guidance for personnel access to branch spaces needs improvement. The procedures
       for access to branch spaces during lockup do not state explicitly that branch members are
       required to use only the designated controlled access door or address measures to protect
       information when personnel who are not authorized access to sensitive data require

                                                 i
U.S. Department of Commerce                                         Final Inspection Report OSE-12754
Office of Inspector General                                                            September 2001


       admittance to branch spaces. We recommend that the procedures be modified to address
       these omissions. (See page 9.)

•	     Application software change control is informal and lacks documented procedures.
       Although a process is in place for requesting changes to the application software, there
       are no written procedures for making the changes and performing and documenting
       appropriate tests on the modified software to ensure that only authorized changes are
       made. We recommend that procedures for software change control be developed in
       accordance with bureau and Department guidance. (See page 12.)

•	     Auditing software has not been regularly used during lockup. When audit logs were
       available, they were not used regularly to monitor access to the indicator data. As a result
       of a recent upgrade to the operating system of the server where the indicator data is
       stored, the audit logs cannot be provided in the format required by the audit application
       program, so these logs will not be available until this program is replaced. We
       recommend that a commercially available audit application be selected and installed as
       soon as possible and that written procedures and training on its use be provided. (See
       page 13.)

•	     Employees have not had appropriate background investigations, and risk levels
       have not been properly assigned. Only one of three employees associated with
       Advance Retail Sales in positions classified as moderate risk have undergone the
       appropriate background investigation required by the Office of Personnel Management
       (OPM); the other two have undergone less intensive investigations. The Office of
       Security could not identify the type of investigation done, if any, for the majority of the
       positions classified as low risk in another division of the Economic Directorate. Two
       persons designated as alternate ESA press room lockup directors also have not undergone
       appropriate background investigations. Furthermore, risk levels assigned to some
       positions are inconsistent with their levels of responsibility and trust. We recommend
       that appropriate background investigations be completed for all employees having pre
       release knowledge of economic indicator data and that position sensitivity classifications
       be reassessed to ensure that they reflect the appropriate level of responsibility and trust in
       accordance with OPM guidance. (See page 18.)

•	     Guidance concerning legal and ethical restrictions on market investments based on
       advance knowledge is not adequate. Census Bureau and ESA employees who have
       access to pre-release indicator data are not provided written guidance regarding the legal
       and ethical restrictions on investing in financial markets based on advance information.
       We recommend that specific guidance be provided on how the Standards of Ethical
       Conduct for Employees in the Executive Branch restrict employees’ ability to engage in
       certain financial transactions with knowledge of pre-release economic indicator data.
       (See page 19.)

                                                 ii
U.S. Department of Commerce                                         Final Inspection Report OSE-12754
Office of Inspector General                                                            September 2001


In our efforts to identify the criteria that are used to determine appropriate risk levels and their
associated background investigations, we noted a lack of guidance from the Department’s Office
of Human Resources Management and the Office of Security, suggesting that the issue of
appropriate risk levels and background investigations may exist elsewhere in Commerce. We
have addressed this issue in our report, Program for Designating Positions According to Their
Risk and Sensitivity Needs to Be Updated and Strengthened, Draft Inspection Report No. OSE
14486/August 2001, which includes recommendations for the Department to provide to operating
units updated guidance for determining appropriate risk levels and their associated background
investigations.



ESA and the Census Bureau have agreed with and are taking steps to implement all of our
recommendations. Our recommendations, which begin on page 13 and page 20, include a
synopsis of their response and our comments on the response, where appropriate.

In particular, the bureau has indicated that positions held by all personnel working on indicator
surveys would be designated as moderate risk, based on discussions with the OIG. However, our
intent was not to specify a particular designation, but rather to point out that designations should
be based on the level of the position’s responsibility and trust in accordance with guidance from
the bureau’s Human Resources Division.

Since we completed our work on the Advance Retail Sales indicator, the Department’s Office of
Security and Office of Human Resources Management have agreed to provide to operating units
updated guidance for determining appropriate risk levels and their associated background
investigations. Therefore, the bureau’s Human Resources Division needs to ensure that its
efforts to implement our recommendations are consistent with the Department’s forthcoming
guidance.

The response of ESA and the Census Bureau, excluding its attachments, is included as
Attachment A.




                                                 iii
U.S. Department of Commerce                                         Final Inspection Report OSE-12754

Office of Inspector General                                                            September 2001



                                       INTRODUCTION

This report presents the results of our evaluation of the security of the Census Bureau’s Advance
Retail Sales Principal Federal Economic Indicator, one of the major statistical series that describe
the current condition of the economy of the United States. Principal Federal Economic
Indicators are developed not only by the Department of Commerce, but also by the Departments
of Agriculture, Labor, and the Treasury, and the Federal Reserve Board, and include the Gross
Domestic Product, U.S. International Trade in Goods and Services, Farm Sector Income,
Unemployment Rate, Consumer Price Index, World Agricultural Production, and Consumer
Installment Credit.

These indicators are widely watched and heavily relied upon by government and the private
sector for an understanding of the current condition and future direction of the nation’s economy.
They have significant commercial value, may affect the movement of commodity and financial
markets, and may be taken as a measure of the impact of government policies. The indicators are
compiled, released, and periodically evaluated by the various agencies in accordance with Office
of Management and Budget (OMB) Statistical Policy Directive No. 3, which provides procedures
to ensure that the indicators meet specific accuracy, release, and accountability standards.

Department of Commerce Principal Federal Economic Indicators

For the Department of Commerce, two bureaus within the Economics and Statistics
Administration are responsible for developing Principal Federal Economic Indicators. The
Bureau of Economic Analysis develops such indicators as the Gross Domestic Product,
Corporate Profits, and Personal Income and Outlays indicators. The Bureau of the Census
develops indicators that include Advance Retail Sales, Housing Starts and Building Permits, and
Wholesale Trade.

In keeping with OMB’s directive, ESA publishes a yearly schedule of the time and date that each
of its indicators will be officially released to the public. ESA releases the indicators from a
secure press room (referred to as the “lockup” facility). Security is needed because OMB’s
directive requires agencies to ensure that no information or data estimates associated with the
indicators are disclosed before the official release time.




                                                 1

U.S. Department of Commerce                                       Final Inspection Report OSE-12754

Office of Inspector General                                                          September 2001



                                       BACKGROUND

The Census Bureau’s Associate Director for Economic Programs is responsible for developing
the bureau’s Principal Federal Economic Indicators. Within this directorate (referred to as the
Economic Directorate), the Service Sector Statistics Division’s Retail and Wholesale Indicators
Branch develops the Advance Retail Sales indicator.

Advance Retail Sales Economic Indicator—General Background

The Advance Retail Sales indicator is released to the public in the Advance Monthly Retail Sales
Report. This report contains the advance sales estimates for the reporting month and preliminary
sales for the previous month by type of business, such as automotive dealers, furniture and home
furnishings stores, food stores, eating and drinking places, and gasoline service stations. It
includes both seasonally adjusted and unadjusted data and is typically released on the ninth
business day of the month following the month to which the report applies. For example, the
indicator for April is released on the ninth business day of May.

This indicator is widely used by government, academic, and business organizations. It is an input
to developing the Gross Domestic Product, is used by the Council of Economic Advisors for
economic policy analysis, and provides the Federal Reserve Board a basis for anticipating
economic trends. For instance, lower-than-expected sales figures could be seen as an indication
of a weakening economy and hence portend higher bond prices. The news media regularly report
on this indicator and use the estimates for performing economic analyses. Businesses use the
estimates to gauge how well they are performing and to predict future demand for their products,
and financial analysts and market research organizations use the data to analyze market trends
and forecast the direction of the economy.

Advance Retail Sales—Development Process

The timeline for development and release of the Advance Retail Sales indicator is presented in
Figure 1. Data for developing the indicator is collected through the Advance Monthly Retail
Sales Survey. Near the end of the month for which the indicator is to be developed, survey forms
are either mailed or sent by facsimile to a sub-sample of about 4,100 participating businesses
selected from the Monthly Retail Trade Survey sample of more than 12,000 businesses.
Businesses participate on a voluntary basis and are afforded confidentiality by the bureau as
required by Title 13 of the United States Code.




                                               2

    End of reporting month
• Mail or fax Advance Retail                            2nd —6th day of next month                            5th —6th day of next month
  Sales Survey forms to the                         • Key response data                                      • Edit and tabulate data
  4,100 participating businesses                    • Follow up by phone, if needed

                                                                                                      Begin secure operations (“lockup”)


                                  7th day of next month
                                                                                              7th—8th day of next month
                           • Develop preliminary indicator
                                                                                     • Review preliminary indicator values
                             values
                                                                                     • Validate final indicator values
                           • Prepare preliminary public
                                                                                     • Prepare final public release reports
                             release reports




                                                                                                             9th day of next month
                                                     th
                                                   8 day of next month                                 • Officially release indicator
                                               • Send report to Council of                               (ESA)
                                                 Economic Advisors                                     • Post reports on public ESA and
                                                                                                         Bureau web sites
Notes:   All days refer to workdays.
         All activities are performed by the Census Bureau, with the exception of release by
         ESA.




                       Figure 1. Timeline for Development and Release of Advance Retail Sales Indicator




                                                                           3

U.S. Department of Commerce                                       Final Inspection Report OSE-12754
Office of Inspector General                                                          September 2001


Completed survey forms are returned either by mail or facsimile to the National Processing
Center (NPC) in Jeffersonville, Indiana, where response data is keyed starting on the second
workday of the following month. Data keying continues during the third through sixth workdays,
when telephone follow-up is used to obtain information from those businesses whose responses
were not provided via mail or facsimile, or included information that needed clarification.

Editing and tabulation of the survey data begin on the fifth workday, and at this point, initial
estimates of the indicator values become available. Consequently, starting on the fifth workday
and extending through the release on the ninth workday, the Retail and Wholesale Indicators
Branch staff operates in a lockup, or secure, mode in order to safeguard the evolving estimates.
During the morning of the seventh workday, branch staff develop finalized indicator values and
prepare reports for public release. The finalized numbers are subject to change during the
validation and review process performed by management and staff. The remainder of the seventh
day and the eighth day are spent on validating the final values and preparing materials for public
release. Late on the afternoon of the eighth day, the report is sent to the Council of Economic
Advisors by secure facsimile.

At 7:45 a.m. on the ninth workday, managers from the Retail and Wholesale Indicators Branch
deliver final distribution copies of the Advance Monthly Retail Sales Report and diskettes
containing the report to the ESA lockup director or a designated alternate. At 8:00 a.m., in a
locked office, the managers brief the Department’s Under Secretary for Economic Affairs,
Deputy Under Secretary for Economic Affairs, and Chief Economist. The office where the
briefing is held remains locked until 8:30 a.m., the official release time. The information is
officially released through the ESA press room, and the report is then made available to the
public on the ESA and Census Bureau web sites.

Principal Economic Indicator Release Process

On the date that an indicator is scheduled for release, reporters from various authorized news
services may enter the lockup facility, located at Department headquarters in Washington, D.C.,
one hour before the official release time. Until one half hour before release time, reporters may
use their computer and communications equipment housed in the lockup facility or brought with
them to establish communications with the external news service systems that will receive the
indicator data. One half hour before release time, reporters are required to break off
communications with their external systems. The door is locked, and nobody may enter or leave
the facility until after official release of the indicator. The ESA lockup director distributes
hardcopy reports and diskettes containing the indicator data to the reporters, who may ask
questions about the information and prepare stories for transmission to their external systems.
Communications are reestablished at the release time.




                                                4

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001


Incidents During the Release Process Have Prompted Tighter Controls by ESA

In February 2000, the New Home Sales indicator was released to one reporter’s remote site
nearly 30 minutes early, and in April 2000, a story on the Trade Deficit indicator for a different
news service appeared on the service’s web site with a time stamp three minutes earlier than the
official release time. We assessed these incidents and found that the first release occurred
because, until recently, communications were provided by individual electronic switches
connected to the reporters’ computers, which the reporters controlled themselves under the
scrutiny of ESA personnel. In this instance, the communications line had been disconnected
from the switch and directly connected to the reporter’s computer during maintenance and had
not been reconnected to the switch. Neither the reporter nor ESA personnel were aware of this.
The information was transmitted when the reporter inadvertently pressed the return key while
directly connected to the remote system. In the case of the early time stamp, we found that the
clock on the reporter’s personal computer was three minutes fast, and the web server posting the
story used that time, giving the appearance of an early release. Because of these incidents, ESA
has taken measures to improve security in order to preclude the actual or perceived early release
of indicators.

Important among these measures is that ESA has transferred the responsibility for breaking off
communications with external systems from the individual reporters to the ESA lockup director
to minimize the chances of an early release. For each news service, ESA has installed a
communications switch whose power source is controlled by a master power switch operated by
the ESA lockup director. In addition, ESA now requires all reporters to ensure that the clocks on
their personal computers are synchronized to Naval Observatory time to avoid having incorrect
time stamps associated with news stories and thereby giving the perception of an early release of
indicator data.

Information Technology Resources

The Retail and Wholesale Indicators Branch staff uses the information technology resources
provided by the Economic Directorate’s local area network (LAN) to produce the monthly
Advance Retail Sales indicator. Staff from the Economic Statistical Methods and Programming
Division (ESMPD) within the Economic Directorate is responsible for security and system
administration of the LAN. The bureau has identified the LAN as a general support system in
accordance with criteria provided by OMB Circular A-130, Appendix III. The LAN was
accredited as a sensitive, but unclassified, system in August 2000. The general support security
plan for the LAN identifies the Advance Retail Sales indicator as one of several production
applications supported by the LAN.

During the monthly survey collection phase, branch staff access the survey data, which are keyed
by bureau personnel and stored on a primary server and a backup server located at NPC. An
additional backup server, which is accessible via the LAN, is also maintained at bureau

                                                 5

U.S. Department of Commerce                                      Final Inspection Report OSE-12754
Office of Inspector General                                                         September 2001


headquarters. Branch staff analysts access the NPC server from personal computers connected to
the Economic Directorate’s LAN. They perform edit and tabulation operations on the data,
which is transferred over a secure connection between NPC and bureau headquarters.

Staff analysts also use the NPC server to generate ratios that serve as input to time-series and
seasonal adjustment programs that are run from LAN personal computers on a Unix server at the
bureau’s Computer Center in Bowie, Maryland, to provide successively refined estimates of the
indicator values. The Bowie facilities are accessed from bureau headquarters via a secure
connection. Applications developed by the bureau are used to generate the final indicator values
and commercially available application programs are used to prepare the associated publications,
which are stored on a server at bureau headquarters.




                                               6

U.S. Department of Commerce                                         Final Inspection Report OSE-12754

Office of Inspector General                                                            September 2001



                      OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this evaluation was to determine whether ESA and the Census Bureau have
adequate internal controls to prevent the premature or unauthorized disclosure or use of Advance
Retail Sales economic indicator data before it is released to the public via the ESA press release
room. We selected the Advance Retail Sales indicator as the subject of this evaluation because
of its importance to government, academic, and business organizations in their efforts to analyze
economic policy, anticipate economic trends, predict demand for products, and forecast the
direction of the economy.

Our field work was performed between July 2000 and April 2001. During this time, we
reviewed written policies and procedures and identified the controls over the analysis,
processing, and reporting of Advance Retail Sales data. We interviewed Census Bureau officials
and staff and observed the procedures used to prepare the Advance Retail Sales estimates. In
addition, we used the General Accounting Office’s (GAO) Federal Information System Controls
Audit Manual (FISCAM) as guidance to evaluate the effectiveness of controls associated with
information technology resources used to prepare the Advance Retail Sales indicator. We also
evaluated the management controls over personnel security for both the Census Bureau staff
involved in preparing the indicator and ESA staff involved in releasing it.

We had originally planned to evaluate the general controls in place for the Economic
Directorate’s LAN. General controls are the structure, policies, and procedures that apply to an
entity’s overall computer operations and establish the environment in which application systems
and controls operate. FISCAM identifies six major categories of general controls, with each
category having an associated set of critical elements, and includes tables that provide guidance
for assessing the effectiveness of the critical elements. Appendix A shows FISCAM’s major
categories of general controls, their purpose, and their critical elements.

As we were planning our evaluation, the bureau contracted for an information security risk
assessment of its systems. The contractor decided to include the Economic Directorate’s LAN
and to use the National Security Agency’s Information Security Assessment Methodology, which
is similar to FISCAM. To avoid duplication of effort, we focused on application controls for the
Advance Retail Sales application rather than on general controls for the LAN. The general
control issues that the contractor raised have been resolved.

Application controls are the structure, policies, and procedures that apply to separate, individual
applications systems, such as Advance Retail Sales and the other economic indicators, identified
as applications in the General Support Security Plan for the LAN. An application system is
typically a group of individual computer programs that relate to a common function, such as
development of an economic indicator. Our evaluation of application controls is consistent with
GAO’s approach to application controls reviews, which emphasizes determining whether
controls are in place to ensure that access privileges establish individual accountability and

                                                 7

U.S. Department of Commerce                                         Final Inspection Report OSE-12754
Office of Inspector General                                                            September 2001


proper segregation of duties, limit the processing privileges of individuals, and prevent and detect
inappropriate or unauthorized activities. To accomplish this, we used the appropriate FISCAM
tables relating to the access controls major category of general controls. In particular, for the
Advance Retail Sales application, we evaluated logical access controls, physical access controls,
and the use of system auditing to facilitate monitoring of file access, investigating apparent
security violations, and taking appropriate remedial action. Furthermore, we evaluated the
effectiveness of the software change control process as it relates to preventing and detecting
inappropriate or unauthorized activities.

We held an exit conference with the Census Bureau on June 26, 2001. Prior to the exit
conference, we discussed the information contained in this report with the Deputy Under
Secretary for Economic Affairs and the bureau’s Associate Director for Economic Programs.
ESA and Census Bureau officials generally agreed with our findings and have already begun to
implement some of our recommendations.

Our evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Departmental Organization Order 10-13,
dated May 22, 1980, as amended.




                                                 8

U.S. Department of Commerce                                         Final Inspection Report OSE-12754

Office of Inspector General                                                            September 2001



                          FINDINGS AND RECOMMENDATIONS

I.	    Application Controls Should Be Strengthened

Logical access controls afford appropriate protection for development of the Advance Retail
Sales indicator. These controls establish individual accountability, limit the processing
privileges of individuals, and establish reasonable physical access controls for servers used in the
development of the indicator. However, guidance on physical access to branch spaces during
lockup needs to be clarified, software change control procedures need to be improved, and
auditing software for detecting inappropriate access to resources on the server that contains final
indicator information has not been used regularly.

A.	    Physical access controls for servers on the LAN are
       reasonable, but guidance for personnel access to
       branch spaces needs improvement

Physical access controls include locks, security guards, badges, alarms, and similar measures that
help to safeguard computer facilities and resources from loss or impairment by limiting access to
buildings and rooms where they are housed. The servers that are part of the Economic
Directorate’s LAN, as well as the servers in Bowie and NPC, which are accessed by analysts
during development of the Advance Retail Sales indicator via the LAN, are housed in locked
rooms to which access is physically restricted to only explicitly authorized personnel. In
addition, access to branch office spaces during lockup is controlled in accordance with
established procedures.

The Economic Directorate’s Procedures for Internal Control of Economic Indicator Data Prior
to Press Release Time requires printed material containing sensitive data to be stored in locked
containers within branch spaces at the end of each workday and when not in use during the day.
As an additional measure to prevent unauthorized access to sensitive economic data, staff from
the Retail and Wholesale Indicators Branch ensure that printed reports are directed only to
printers within the branch spaces.

The procedures contain a section titled, “Office Security Procedures,” which specifies the process
for ensuring that only authorized personnel have access to branch spaces where aggregate data
are prepared. This document specifically states:

       “All offices housing unpublished sensitive economic data will have controlled
       access for a fixed period of time to be established by the Branch Chief. During
       the period of time needed to prepare the release, no admission to the local branch
       areas where the aggregate data are prepared, will be permitted to unauthorized
       personnel. Formal notices, in English and Spanish, must be displayed at normal
       entry points to read:


                                             9

U.S. Department of Commerce                                        Final Inspection Report OSE-12754

Office of Inspector General                                                           September 2001




           NO ADMITTANCE/AUTORIZADO PERSONAL UNICAMENTE

       During this time, the Branch Chief will designate only one entry point to the
       branch, which will be in compliance with fire regulations. A monitor is to be
       stationed close to the entry point to ensure enforcement of the “no admittance”
       policy. A sign-in/sign-out log will be maintained for non-branch personnel
       entering the area.”

During our evaluation, we observed two days of the Advance Retail Sales lockup process for the
September 2000 release. When we arrived at the designated branch access point, appropriate
signs were posted on the doors, and we were required to sign a log upon entry. In addition, we
noted several occasions when non-branch personnel, who also regularly participate in the
development of the indicator, signed the log as required upon entry to and exit from branch
spaces. However, while observing the lockup process, we noted that a branch staff member
exited the branch spaces through a doorway that was not designated as the access door and
shortly afterward re-entered through the same door. This door was locked from the inside and
required the use of a key to re-enter, and a “NO ADMITTANCE” sign was appropriately posted
on the outside of the door.

The branch manager later confirmed that branch members, as well as authorized visitors, should
use only the designated controlled access door to enter and exit the branch area during lockup.
We believe that the procedures contained in the “Office Security Procedures” section of the
internal control procedures should be modified to state explicitly that branch members are
required to use only the controlled access door to enter and exit the branch area during lockup
and that branch members should be reminded of this requirement. Explicitly stating and
rigorously enforcing access requirements will increase the assurance that branch employees are
not engaged in unauthorized disclosure of information. Strict enforcement will also ensure that
normal entry points, which are locked at the start of a lockup period, remain locked. If a branch
member were to exit through a locked door and that door would fail to close tightly, it could
provide unauthorized persons an entry point to branch spaces and access to sensitive economic
data.

Finally, we learned that occasionally personnel who are not authorized access to sensitive
indicator data require access to branch spaces during lockup to repair copiers or perform other
maintenance-related services. In these cases, the branch manager or supervisor ensures that a
member of the branch accompanies such visitors and takes measures to prevent unauthorized
access to sensitive data. However, the directorate’s internal controls document does not
explicitly address protecting information when such visitors require access to branch spaces
during lockup, and we believe that it should.




                                                10

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

B.     Logical access controls are appropriate

Logical access controls involve the use of computer hardware and security software to prevent or
detect unauthorized access to resources by requiring users to provide unique user identifications,
passwords, or other identifiers that afford predetermined privileges to access specific resources.
These controls are used to restrict the access of legitimate users to specific systems, programs,
and files needed to conduct their work, and to prevent unauthorized users from gaining access to
computing resources. We found that ESMPD follows appropriate bureau-wide procedures
pertaining to logical access controls as specified in the bureau’s Handbook for Information
Technology Security and the general support security plan for the LAN.

Access to LAN-based computing resources by branch analysts is controlled by unique user
identification and password combinations, which are initially assigned and periodically changed
in accordance with bureau-wide procedures. Users can access the LAN only if they have been
assigned a valid user identification and password combination and can access only those servers
for which they have been provided user identification and password combinations. Passwords
are required to contain a specified minimum number of alphabetic and non-alphabetic characters.
In addition, users are required to change their passwords upon initially logging on to a system
and every 30 days thereafter. Password history files are maintained to ensure that passwords
cannot be reused for at least 12 months.

Whenever any user makes a certain number of consecutive unsuccessful attempts to log on to a
system, the LAN system administrators are notified, and subsequent log-on attempts from the
user’s account are disabled until an administrator reinstates the log-on capability. This
mechanism allows an administrator to determine the cause of the access failure and to verify the
user’s identity before granting further access. For the Advance Retail Sales indicator, an extra
level of access control is provided by the computer program used for editing and tabulating
survey data, which is an additional user identification and password to enable access to the
particularly sensitive survey data.

Supervisors within the Retail and Wholesale Indicators Branch follow bureau-wide procedures to
obtain LAN and server access for newly hired staff, as well as to deactivate access privileges for
staff who leave the branch. During our fieldwork, a branch employee resigned, and we verified
that all of that employee’s access privileges were promptly removed.

Finally, we determined that branch supervisors work with LAN administrators to ensure that
analysts are provided access privileges only to the systems, programs, and data files needed to
conduct their work. We reviewed directories on the servers used for development of the
Advance Retail Sales indicator and found that access privileges are assigned only to members of
the Retail and Wholesale Indicators Branch and to designated support staff from ESMPD. File
access controls afforded by the various operating systems provide the mechanisms for assigning
access privileges.


                                                11

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

C.	    Application software change control is
       informal and lacks documented procedures

Application software has been designed to support development of the Advance Retail Sales
economic indicator. This software consists of computer programs that have been developed by
the bureau, as well as commercially available applications for which specific scripts have been
written, to facilitate the generation of intermediate and final versions of the indicator.

Establishing and enforcing procedures for modifying application software and related scripts
provides a level of assurance that only authorized programs and authorized changes are
implemented. This can be accomplished by instituting policies, procedures, and techniques that
help ensure that all programs and program modifications are properly authorized, tested, and
approved and that access to and distribution of programs are carefully controlled. Failure to
implement effective change control measures presents a risk that security features built into the
software could be inadvertently or deliberately circumvented or that unauthorized processing or
malicious code could be introduced.

Although a process is in place for requesting changes to software used in the development of the
Advance Retail Sales indicator (as well as other indicators) and ESMPD staff are aware of it,
there are no written procedures for making the changes and performing and documenting
appropriate tests on the modified software to ensure that only authorized changes are made. The
application software for Advance Retail Sales has not required significant changes in the past
several years, and an ESMPD programmer/analyst has been assigned to work with the Retail and
Wholesale Indicators Branch to provide technical support and coordinate any necessary changes
to the software. However, written procedures for application software change control are still
needed.

A GAO report, Information Security: Controls Over Software Changes at Federal Agencies
(GAO/AIMD-00-151R, May 4, 2000), underscores the general lack of effective software change
control within federal agencies, including the Department of Commerce. Appropriate guidance
for software change control within ESMPD needs to be developed, documented, and followed,
particularly with respect to applications used in the development of economic indicators.




                                                12

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

D.     Auditing software has not been
       regularly used during lockup

Novell’s Netware operating system provides a feature to create audit logs that contain a record of
all accesses by users and applications to files containing pre-release information for Advance
Retail Sales and several other indicators on the server where actual indicator data and reports are
stored. ESMPD had enabled this feature on the publication server and developed an application
program to filter the logged data and provide an indication of any potential unauthorized attempts
to access the pre-release data. Although branch managers and supervisors have received
instruction in the use of the application, they did not use it regularly to monitor resource access
during and immediately following the monthly lockups because it was a relatively recent and
evolving product with no documentation providing instructions to users. ESMPD network
personnel had been using the application to scan the audit log files on the server during lockup to
monitor access to the indicator data.

However, ESMPD has upgraded the operating system on this server to a new release of Netware,
which will not provide audit logs in the format required by the audit application program. As a
result, ESMPD officials have told us that they plan to evaluate several commercially available
programs to replace the current audit application, install the selected program, and provide
appropriate training for branch managers and supervisors who use the publication server. We
support this effort and believe that ESMPD should provide written procedures to ensure that the
selected audit program will be used properly by managers and supervisors during lockup.

E.	    Recommendations

We recommend that the Acting Director of the Census Bureau direct the Associate Director for
Economic Programs to:

1.	    Ensure that the directorate’s Procedures for Internal Control of Economic Indicator Data
       Prior to Press Release Time is modified to state explicitly that:

       a.	     Branch members are required to use only the controlled access door to enter and
               exit the branch area during lockup, and branch chiefs are responsible for strictly
               enforcing this requirement.

       b.	     A branch member is required to (1) accompany any visitors who are not
               authorized access to sensitive indicator data but who require access to branch
               spaces during lockup, and (2) preclude their access to the sensitive data.

       The bureau has agreed with this recommendation and has agreed to provide us a copy
       of the updated document for review.




                                                13

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

2. 	   Ensure that branch members are aware of the requirements to use only the controlled
       access door during lockup and to accompany visitors not authorized to access sensitive
       indicator data.

       The bureau has agreed with this recommendation. The Economic Directorate held a
       meeting with branch staff to re-emphasize these requirements and posted appropriate
       signs on the inside of every door in the lockup area.

3. 	   Ensure that procedures for software change control are developed according to bureau
       and Department guidance and that they are followed, particularly with respect to
       applications used in the development of economic indicators.

       The bureau has agreed with this recommendation. The Economic Directorate
       developed a document titled “Economic Directorate Current Surveys Change Control
       Model” and provided us a copy.

4. 	   Ensure that a commercially available audit application is selected and installed as soon as
       possible and that written procedures are prepared and training on its use is provided.

       The bureau has agreed with this recommendation and is exploring off-the-shelf
       software options. The bureau noted that until it finds an appropriate product, it will
       continue to use the existing software and monitor its output regularly.




                                               14

U.S. Department of Commerce                                         Final Inspection Report OSE-12754
Office of Inspector General                                                            September 2001

II.     Management Controls Over Personnel Security Need to Be Strengthened

Census Bureau employees who participate in the development of Principal Federal Economic
Indicators, including the Advance Retail Sales indicator, as well as ESA employees who coordinate
the release of these indicators, have advance knowledge of sensitive economic data that could
affect or predict financial market activity. These employees could potentially profit from
speculative market investments based on this advance knowledge. For Advance Retail Sales,
employees know the final indicator values for up to a day and a half before its release to the public.
The ESA employees who coordinate the release of all the Department’s principal economic
indicators via the lockup facility have access to final indicator data 15 minutes before the lockup
begins. Consequently, the government needs to take measures to ensure that these employees are
suitable for such positions of public trust.

In 1991, the Office of Personnel Management (OPM) issued Appendix A to 731 Subchapter 5 of
the Federal Personnel Manual (FPM). This appendix provides guidance and criteria for classifying
positions of public trust, such as those dealing with development of Principal Federal Economic
Indicators, as high, moderate, or low risk. It also specifies the type of background investigation
appropriate for each of the risk levels. However, the FPM was abolished in December 1993.

Since then, the bureau has developed its own guidance and criteria, which are consistent with
Appendix A, and published them as chapter S-8 in the Census Administrative Manual. Chapter S-8
states that the immediate supervisor or manager having responsibility for a position has primary
responsibility for designating the position’s risk level. The current version of chapter S-8 was
signed by the bureau director in December 1996. Tables 1 and 2 provide summary information
from chapter S-8. Table 1 provides representative criteria for classifying positions as high,
moderate, and low risk and indicates the corresponding type of investigation appropriate for each
level of risk. Table 2 describes the types of investigation associated with the risk levels.

On December 28, 2000, OPM published in the Federal Register revised regulations concerning the
classification of positions based on risk level and the associated background investigation
requirements. These regulations, found at 5 Code of Federal Regulations Part 731, became
effective on March 30, 2001; however, they do not provide details, such as those provided by FPM
Appendix A, for classifying position risk levels and do not identify background investigation
requirements for the various risk levels. Rather than including these details in the regulations,
OPM has decided to offer federal agencies training on classifying position risk levels and
determining appropriate background investigations. OPM’s Federal Investigations Notice No. 01
08, dated March 19, 2001, provides details about the available training.

Additionally, because of the abolishment of the FPM, the regulation includes a section outlining
OPM’s and agencies’ responsibilities for personnel security associated with the design, operation,
and use of federal automated information systems, as required by OMB Circular A-130 (1996
version) and the Computer Security Act.



                                                 15

U.S. Department of Commerce                                                     Final Inspection Report OSE-12754

Office of Inspector General                                                                        September 2001



 Table 1. Representative Risk Level Classification Criteria and Investigation Types
          in Chapter S-8 of the Census Administrative Manual


   Risk                       Representative Classification Criteria                               Type of
   Level                        (Abbreviated from Chapter S-8)                                   Investigation
    High      (1) Positions involving duties of clearly major importance to the Census           Background
                  Bureau mission with major program responsibilities that affect the             Investigation
                  efficiency of the government.                                                  (BI)

              (2) Positions involving development or approval of plans, policies, or
                  programs that affect the overall operations of the Census Bureau; that is,
                  policymaking or policy-determining positions.

              (3) Positions involving fiduciary, public contact, or other duties demanding
                  the highest degree of public trust. This includes positions in the Senior
                  Executive Service; GS-15 positions that clearly involve fiduciary, public
                  contact, or other duties demanding the highest degree of public trust;
                  positions involving foreign duty; positions involving investigative
                  compliance, inspection, or auditing responsibilities, regardless of
                  grade,

              (4) Positions in which the incumbent is responsible for planning, directing,
                  and implementing a computer security program,

              (5)   Positions designated by the Director or a field office director.

  Moderate    (1) Positions involving duties of considerable importance to the Census            Minimum
                  Bureau mission with significant program responsibilities that affect the       Background
                  efficiency of the government.                                                  Investigation
                                                                                                 (MBI)
              (2)    Positions involving duties that demand a high degree of confidence and
                    trust.

              (3)    Positions for which the incumbent is responsible for directing, planning,
                    designing, operating, or maintaining a computer system, and whose work
                    is technically reviewed by a higher authority at the Critical Sensitive or
                    High Risk level to ensure the integrity of the system.

    Low       A position that does not fall into a higher sensitivity level.                     National Agency
                                                                                                 Check with
                                                                                                 Inquiry (NACI)

 Note: FPM Appendix A recommends that moderate risk positions undergo either an MBI or, preferably, a
 Limited Background Investigation, which is a more extensive investigation than the MBI.




                                                         16

U.S. Department of Commerce                                                Final Inspection Report OSE-12754

Office of Inspector General                                                                   September 2001



 Table 2. Description of Types of Investigations Associated With Risk Levels
          in Chapter S-8 of the Census Administrative Manual
   Risk        Type of
   Level     Investigation                                      Description
    High     Background        Consists of a subject interview, written inquiries, record searches, a credit
             Investigation     check, and personal interviews with selected sources covering specific areas of
                               a subject’s background up to the past five years.

  Moderate   Minimum           Consists of a subject interview, written inquiries, record searches, a credit
             Background        check, and a law enforcement check covering the most recent five-year period.
             Investigation


             Limited           Consists of a subject interview, personal interviews with selected sources
             Background        covering specific areas of a subject’s background during the past three years,
             Investigation     written inquiries, record searches, and a credit check.

    Low      National Agency   Consists of record searches of national, state, and local law enforcement and
             Check with        investigative indices, as well as written inquiries and record searches covering
             Inquiry           specific areas of a subject’s background during the past five years.



Although guidance has been available, the bureau has not ensured that appropriate background
investigations for employees dealing with the Advance Retail Sales indicator have been
completed and has not assigned appropriate levels of risk to positions held by these employees.
Similarly, ESA has not verified that employees who coordinate the release of principal economic
indicators have undergone appropriate background investigations.

Using guidance from the Department’s Office of Human Resources Management, human
resources personnel in Commerce bureaus are responsible for working with management to
determine the risk level for each position. For low and moderate risk positions, human resources
personnel are responsible for requesting the appropriate background investigation from OPM.
For high risk positions, human resources personnel are responsible for providing background
information to the Office of Security, which is then responsible for requesting the appropriate
background investigation from OPM. In our efforts to identify the criteria that are used to
determine appropriate risk levels and their associated background investigations, we noted a lack
of guidance from the Office of Human Resources Management and the Office of Security,
suggesting that the issue of appropriate risk levels and background investigations may exist
elsewhere in Commerce. We have addressed this issue in our report, Program for Designating
Positions According to Their Risk and Sensitivity Needs to Be Updated and Strengthened, Draft
Inspection Report No. OSE-14486/August 2001, which includes recommendations for the
Department to provide to operating units updated guidance for determining appropriate risk
levels and their associated background investigations. The Department’s Office of Security and


                                                    17

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

Office of Human Resources Management have agreed to provide updated guidance; thus, the
bureau’s Human Resources Division needs to ensure that their efforts to implement our
recommendations are consistent with the Department’s forthcoming guidance.

Finally, ESA has not provided employees having pre-release access to economic indicator data
with guidance concerning legal and ethical restrictions on market investments based on advance
knowledge.

A.	    Employees have not had appropriate
       background investigations

We reviewed the types of background investigations that were done for 27 bureau employees
regularly involved in the development of the Advance Retail Sales indicator. Three were
employees of the ESMPD, and 24 were employees of the Service Sector Statistics Division
(SSSD). Twenty-two employees held positions classified as low risk, three held positions
classified as moderate risk, and two held positions classified as high risk. Bureau guidance
specifies that low risk positions should be subject to a National Agency Check with Inquiry
(NACI), moderate risk positions to a Minimum Background Investigation (MBI), and high risk
positions to a Background Investigation (BI). This is consistent with OPM guidance, which
states that moderate risk positions could be subject to either an MBI or Limited Background
Investigation.

For the 22 low risk positions, six employees had undergone the specified NACI; however,
records provided by the Department’s Office of Security could not identify the type of
investigation done, if any, for the remaining 16. For the three moderate risk positions, two
employees had received only an NACI and the other the required MBI. Both employees filling
the high risk positions had undergone the required BI.

We also reviewed the types of background investigations done for another 169 employees of
SSSD and found that 47 had no record of any investigation having been done. Furthermore, we
found that for another 216 employees of ESMPD, 87 had no record of any investigation having
been done.

In addition, we noted that two persons designated as alternate ESA lockup directors fill positions
classified as equivalent to moderate risk, but have not undergone background investigations
corresponding to the MBI.

As a result of our analysis, we conclude that management controls need to be strengthened to
ensure that appropriate background investigations are completed for all employees within the
Economic Directorate and for the ESA employees who coordinate the ESA lockup.




                                                18

U.S. Department of Commerce                                         Final Inspection Report OSE-12754
Office of Inspector General                                                            September 2001

B.	    Risk levels for positions have not been properly assigned

We also found that risk levels assigned to positions held by some SSSD and ESMPD employees
involved in developing the Advance Retail Sales indicator are inconsistent with the levels of
responsibility and trust associated with their positions. For example, 23 employees regularly
involved in the development of the indicator have access to the final data for up to a day and a
half before it is released to the public through the ESA press room. Of these employees, only the
Branch Chief’s position is classified as moderate risk; the remaining positions are classified as
low risk. This disparity in classification needs to be rectified, and these remaining positions
should be reclassified as moderate risk because of the sensitive nature of the final indicator data
and the requirement to prevent its disclosure prior to official release to the public. Moreover, the
managers within the Economic Directorate should review and appropriately adjust the risk levels
associated with all positions within the directorate.

In addition, the positions held by the ESA employees who coordinate the lockup have been
classified according to the sensitivity criteria for national security positions. However, they do
not handle national security information and should instead be classified according to the risk
criteria for public trust positions.

C.	    Guidance concerning legal and ethical
       restrictions on market investments based
       on advance knowledge is not adequate

All Census Bureau employees are required to sign a sworn statement that they will abide by the
data confidentiality requirements of Title 13 of the U.S. Code, which covers sensitive Census
data. Employees within the Economic Directorate are regularly provided verbal and written
reminders about the proper handling of data that is afforded protection from unauthorized
disclosure and improper use by Title 13. Also, the bureau requires all new employees to attend a
one-hour ethics briefing. Furthermore, Economic Directorate employees who are involved with
economic indicators are provided a verbal semiannual reminder by their supervisor during
performance reviews about the need to protect pre-release economic indicator data from public
disclosure. However, these employees and other ESA employees who have access to pre-release
indicator data are not provided written guidance that explains the ethical restrictions on investing
in financial markets based on advance information that is not available to the public. The
Standards of Ethical Conduct for Employees in the Executive Branch, 5 CFR Part 2635, contains
section 703, Use of Nonpublic Information, which prohibits employee use of nonpublic data.
This section also notes that, in addition to violations of this section, certain employee use of
nonpublic information could also violate federal securities laws.

The Bureau of Labor Statistics (BLS), which also develops Principal Federal Economic
Indicators, has issued Commissioner’s Order No. 1-00 to provide guidance on how the Standards
of Ethical Conduct for Employees in the Executive Branch apply to employees making financial


                                                 19

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

transactions with knowledge of BLS embargoed data. The order defines embargoed data as pre
release economic series data for the Principal Federal Economic Indicators produced by BLS, and
specifically states that the standards prohibit employees who have access to embargoed data from
using the data for private gain or allowing others to do so. It further states that employees may
not take actions that could create an appearance that they are using nonpublic government
information for private gain.

Additional guidance is given to help ensure that market investments made by such employees
can in fact be made without violating or appearing to violate an ethical standard. For example,
the order states that if an individual owns shares in a mutual fund, but does not participate in or
receive advance knowledge of decisions regarding its portfolio, there would be no appearance of
an ethics violation if transactions affecting the fund occurred while the individual has knowledge
of embargoed data.

This order contains the type of specific guidance that should be provided to Economic
Directorate employees who are involved in the development of economic indicators and to all
ESA employees who have access to pre-release indicator data.

The Commissioner’s Order is included as Appendix B.

D.	    Recommendations

We recommend that the Acting Director of the Census Bureau direct the Director of the bureau’s
Human Resources Division to:

1.	    Require division personnel responsible for position sensitivity classification to attend
       training classes described in OPM Federal Investigations Notice No. 01-08, March 19,
       2001, to obtain an understanding of 5 CFR 731 risk classification and investigation
       requirements.

       The bureau has agreed with this recommendation. The bureau’s Human Resources
       Division will schedule appropriate training for its specialists.

2.	    Develop written guidance that reflects the position risk level classification and
       investigation requirements taught in the training classes mentioned above and distribute it
       to bureau managers so they can classify position sensitivity appropriately.

       The bureau has agreed with this recommendation. Human Resources Division
       specialists will develop the written guidance in conjunction with security personnel
       after attending training classes.




                                                20

U.S. Department of Commerce                                        Final Inspection Report OSE-12754
Office of Inspector General                                                           September 2001

We recommend that the Acting Director of the Census Bureau direct the Associate Director for
Economic Programs to:

3.	    Reassess the position sensitivity codes for all employees to ensure that they reflect the
       appropriate risk designations based on the level of responsibility and trust associated with
       each position in accordance with guidance from the bureau’s Human Resources Division.

       The bureau has agreed with this recommendation. However, the bureau has indicated
       that positions held by all personnel working on indicator surveys will be designated as
       moderate risk, based on discussions with us. These discussions did not intend to
       convey that positions held by all personnel working on indicator surveys should be
       designated as moderate risk. Rather, we stated that those persons having access to the
       same information available to the branch chief should have positions designated at the
       same moderate risk level as the branch chief rather than low risk as currently
       designated. Some positions for personnel working on indicator surveys are currently
       designated as high risk, and other positions may also warrant a high risk designation.
       We reaffirm that risk designations should be based on the level of responsibility and
       trust associated with each position in accordance with guidance from the bureau’s
       Human Resources Division.

4.	    Ensure that appropriate background investigations have been completed for all
       employees.

       The bureau has agreed with this recommendation. However, the bureau’s response
       notes that roles and responsibilities of human resources, security, and management
       with respect to risk designation and background investigations are not clearly defined
       and understood. Our report, Program for Designating Positions According to Their
       Risk and Sensitivity Needs to Be Updated and Strengthened, Draft Inspection Report
       No. OSE-14486/August 2001, recommends that the Department provide to operating
       units clear definitions of roles and responsibilities of human resources, security, and
       management with respect to risk designation and background investigations. Thus,
       roles and responsibilities for risk designation and background investigations should be
       made clear by forthcoming Department guidance.

We recommend that the Under Secretary for Economic Affairs:

5.	    Ensure that the position sensitivity codes for ESA employees who coordinate the release
       of economic indicators via the ESA lockup reflect appropriate risk designations rather
       than national security sensitivity levels currently assigned, and that background
       investigations appropriate for the risk levels are conducted.




                                                21

U.S. Department of Commerce                                     Final Inspection Report OSE-12754

Office of Inspector General                                                        September 2001


       ESA has agreed to work with the Office of Security and the bureau’s Human
       Resources Division, which provides human resources support to ESA, to comply with
       this recommendation.

6.	    Request assistance from the Office of General Counsel’s Ethics Division, and develop
       specific written guidance on how federal securities laws and the Standards of Ethical
       Conduct for Employees in the Executive Branch restrict employees’ ability to engage in
       certain financial transactions with knowledge of pre-release economic indicator data.

       The bureau has agreed with this recommendation and has issued written guidance for
       indicator staff on how the Standards of Ethical Conduct apply to employees making
       financial transactions with knowledge of Census Bureau Principal Economic
       Indicator data prior to public release.




                                              22

                                                                                               APPENDIX A


    Purpose and Critical Elements of Major Categories of FISCAM General Controls
Entity-wide Security Planning and Program Management

Purpose           Provides a framework and continuing cycle of activity for managing risk, developing security
                  policies, assigning responsibilities, and monitoring the adequacy of the entity’s
                  computer-related controls

Critical          Periodically assess risks
Elements          Document an entity-wide security program
                  Establish a security management structure and assign security responsibilities
                  Implement effective security-related personnel policies
                  Monitor the security program’s effectiveness and make changes as needed

Access Controls

Purpose           Limit or detect access to computer resources (data, programs, equipment, and facilities),
                  thereby protecting these resources against unauthorized modification, loss, and disclosure

Critical          Classify information resources according to their criticality and sensitivity
Elements          Maintain a current list of authorized users and their access authorized
                  Establish physical and logical controls to prevent or detect unauthorized access
                  Monitor access, investigate apparent security violations, and take appropriate remedial action

Application Software Development and Change Controls

Purpose           Prevent unauthorized programs or modifications to an existing program from being
                  implemented

Critical          Ensure that processing features and program modifications are properly authorized
Elements          Test and approve all new and revised software
                  Control software libraries

System Software

Purpose           Limit and monitor access to the powerful programs and sensitive files that (1) control the
                  computer hardware and (2) secure applications supported by the system

Critical          Limit access to system software
Elements          Monitor access to and use of system software
                  Control system software changes

Segregation of Duties

Purpose           Establish policies, procedures, and an organizational structure so that one individual cannot
                  control key aspects of computer-related operations and thereby conduct unauthorized
                  actions or gain unauthorized access to assets or records

Critical          Segregate incompatible duties and establish related policies
Elements          Establish controls to enforce segregation of duties
                  Control personnel activities through formal operating procedures and supervision and review




                                                    A-1

    Purpose and Critical Elements of Major Categories of FISCAM General Controls
                                     (Continued)
Service Continuity

Purpose              Ensure that when unexpected events occur, critical operations continue without interruption
                     or are promptly resumed and critical and sensitive data are protected

Critical             Assess the criticality and sensitivity of computerized operations and identify supporting
Elements             resources
                     Take steps to prevent and minimize potential damage and interruption
                     Develop and document a comprehensive contingency plan
                     Periodically test the contingency plan and adjust it as appropriate




                                                        A-2

B-1

B-2

B-3

